          U.S. Department of Energy
          Office of Inspector General
          Office of Inspections and Special Inquiries




Inspection Report
The Department of Energy’s
Pandemic Influenza Planning




DOE/IG-0784                             December 2007
THE DEPARTMENT OF ENERGY’S
PANDEMIC INFLUENZA PLANNING



TABLE OF
CONTENTS

              OVERVIEW

              Introduction and Objective                 1

              Observations and Conclusions               2

              Background                                 3

              DETAILS OF FINDINGS

              Pandemic Plans                             4

              Coordination of Vaccines and Antivirals    6

              Monitoring Team Positions                  7

              Attendance Process                         7

              Social Distancing Drill                    8

              Pandemic Employee Training                 8

              RECOMMENDATIONS                            9

              MANAGEMENT COMMENTS                        10

              INSPECTOR COMMENTS                         10

              APPENDICES

              A. Scope and Methodology                   12

              B. Status of Pandemic Influenza Plans      13

              C. Highlights of DOE’s Pandemic Planning   15

              D. Management Comments                     16
Overview

INTRODUCTION    According to the U. S. Centers for Disease Control and Prevention
AND OBJECTIVE   (CDC), in a worst case scenario, as many as 90 million people in
                the U.S., including 30 percent of its workforce, could become sick
                from a mutated avian influenza (bird flu) H5N1 strain. Proactive
                steps are therefore necessary to protect U.S. Department of Energy
                (DOE) personnel and maintain the Department’s mission-essential
                functions.

                The Government issued mandates to Federal agencies to conduct
                pandemic influenza planning. On November 1, 2005, the President
                announced the “National Strategy for Pandemic Influenza,”
                requiring Federal agencies that perform mission-critical functions,
                including DOE, to develop agency pandemic influenza plans. In
                the event of a pandemic, the U.S. Department of Health and
                Human Services will lead the public health and medical response
                and the U.S. Department of Homeland Security will lead
                nonmedical domestic support and response actions.

                On March 29, 2006, the Deputy Secretary of Energy signed a
                memorandum, “Development of the Department of Energy
                Pandemic Influenza Plans,” which required all DOE entities,
                including the National Nuclear Security Administration (NNSA),
                to develop specific pandemic influenza plans with full
                implementation by May 31, 2006. The memorandum also
                established the DOE Biological Event Monitoring Team
                (Monitoring Team) to coordinate with other Federal agencies and
                develop a plan that would address an avian influenza pandemic.
                On November 8, 2006, the White House Homeland Security
                Council issued a pandemic influenza plan checklist that contained
                additional criteria for agencies to follow. We concluded that the
                Deputy Secretary’s memorandum and the White House checklist
                were mandatory.

                The objective of our inspection was to determine if DOE was
                taking appropriate and timely actions regarding its pandemic
                influenza planning.




Page 1                                          The Department of Energy’s
                                                Pandemic Influenza Planning
OBSERVATIONS AND     We concluded that while DOE Headquarters and many
CONCLUSIONS          Department sites are making progress in their pandemic influenza
                     planning, much remains to be done. Specifically, we found that:

                        •   Of the 72 organizations required to submit a pandemic plan
                            by a June 1, 2007, deadline set by the DOE Continuity
                            Program Manager, only 36 (or 50 percent) met the
                            requirement. In addition, only one of the four DOE power
                            administrations submitted a plan, which is of particular
                            concern given their role in ensuring the Nation’s electricity
                            infrastructure;

                        •   As of October 11, 2007, at the conclusion of our field work,
                            53 of 80 organizations (or 66 percent) had submitted their
                            pandemic plans; the Continuity Program Manager
                            explained that the number of organizations required to
                            submit plans had increased since the June 1, 2007,
                            deadline;

                        •   Coordination with individual State or U.S. Department of
                            Health and Human Services officials for the release of
                            pandemic vaccines and antivirals had not been completed;

                        •   Of the 11 required Monitoring Team technical advisory
                            positions and 1 Medical Officer position, 4 advisory
                            positions and the Medical Officer position remained
                            unfilled as of October 11, 2007;

                        •   Although much progress has been made, DOE had not fully
                            implemented an overall corporate process for identifying
                            and reporting employees who would be unable to perform
                            their work during a pandemic;

                        •   DOE had not conducted a “social distancing” drill (e.g., use
                            of teleworking, limited use of mass transit, and restrictions
                            on meetings and gatherings) to test its ability to perform
                            mission-essential functions while minimizing person-to-
                            person contact; and,

                        •   Although DOE had initiated a pandemic influenza
                            education and information campaign, including a voluntary
                            training course, only 550 of approximately 140,000 DOE
                            Federal and contractor employees were trained as of
                            October 11, 2007.


______________________________________________________________________

Page 2                                                Observations and Conclusions
BACKGROUND           We announced this inspection on November 7, 2006. We
                     suspended our inspection on November 13, 2006, and
                     December 14, 2006, at the request of the Department’s Office of
                     Health, Safety and Security (HSS), in order to provide DOE time
                     to implement numerous aspects of its pandemic influenza
                     planning. We started our inspection field work on May 1, 2007.

                     The lead office for emergency operations relating to the
                     Department’s pandemic influenza planning is NNSA’s Office of
                     the Associate Administrator for Emergency Operations. This
                     office is also responsible for DOE’s overall Continuity of
                     Operations Plan (COOP). The lead office for biomedical aspects
                     of pandemic influenza planning is HSS’ Office of Illness and
                     Injury Prevention Programs. This office is responsible for
                     coordinating with the White House Homeland Security Council
                     and providing pandemic influenza education to employees.

                     During our entrance conference on May 1, 2007, we learned
                     that the Continuity Program Manager had previously chosen
                     June 1, 2007, for the deadline for each Department entity to submit
                     a pandemic plan to him. Based on this date, we chose June 1,
                     2007, as a snapshot in time regarding DOE’s pandemic
                     implementation planning. To most accurately reflect the status of
                     DOE’s pandemic planning, we requested and were provided
                     updated information as of October 11, 2007.

                     We determined that DOE has been proactive in several areas
                     regarding its pandemic influenza planning. Specifically, HSS, the
                     Office of the Associate Administrator for Emergency Operations,
                     and the Office of Human Capital Management (Human Capital)
                     have taken leadership roles in the Department’s pandemic
                     influenza planning. As reflected in this report, the Department has
                     taken a number of important steps to address pandemic influenza
                     issues. Appendix C includes a summary of these actions.




______________________________________________________________________

Page 3                                                                    Background
Details of Findings

PANDEMIC PLANS                      We found that, of the 72 organizations required to submit
                                    a pandemic plan by the June 1, 2007, deadline set by the DOE
                                    Continuity Program Manager, only 36 (or 50 percent) met the
                                    requirement. In addition, only one of four DOE power
                                    administrations submitted a plan, which is of particular concern
                                    given their essential role in the Nation’s electricity infrastructure.

                                    Figure 1 represents the pandemic plan statistics as of June 1, 2007.
                                    Appendix B of this report identifies the status of all program
                                    office, support office, and site pandemic plans as of June 1, 2007.

                                                                       Figure 11



                                                   Status of DOE/NNSA Pandemic Plans by
                                                           Entity as of June 1, 2007

                                                                                 6

                                                 36



                                                                                           30


                                                                None     Draft     Final


                                    On October 11, 2007, at the conclusion of our field work, the
                                    Continuity Program Manager informed us that, based on his
                                    statistical analysis of the DOE/NNSA organizational components,
                                    he determined that the number of organizations required to submit
                                    a pandemic plan had increased [from 72 to 80]. According to the
                                    Continuity Program Manager’s statistics, 53 of 80 (or 66 percent)
                                    of the organizations had submitted pandemic plans by that date.

                                    The Continuity Program Manager said that in December 2006, he
                                    had informed all entities that they needed a COOP, which would
                                    include a pandemic plan, by the June 1, 2007, deadline. He said
                                    that he believed that six months was a sufficient amount of time for
                                    the entities to complete their plans. The Continuity Program
                                    Manager asserted that he was unable to require all entities to
                                    develop a plan because there was no enforceable criterion, such as

1
 The Continuity Program Manager said that he planned to conduct a quality assurance review of each pandemic
plan prior to his acceptance of the plans as final. As of October 11, 2007, the quality assurance review had not been
completed.



Page 4                                                                                      Details of Findings
         a DOE order. He noted that contractors use DOE orders for
         justification for funding of additional work. He further said that
         during January 2007, NNSA approved justification for a new
         Continuity of Programs Order that would include a requirement for
         pandemic plans. The draft Order is currently under review. We
         substantiated the lack of a DOE directive or Code of Federal
         Regulations provision covering this topic.

         Further, we were also told by some entities that had not submitted a
         pandemic plan that they were waiting for a DOE order. Thus, we
         believe that it is important for there to be an enforceable
         requirement that all DOE entities have a pandemic plan.
         Accordingly, we believe that DOE should expedite the process to
         put such a requirement in place.

         DOE has a mission-critical role to ensure that the Nation’s energy
         infrastructure is operational during emergencies. A critical aspect of
         this is the DOE power administrations. We noted that the Southwest
         Power Administration Headquarters and its field units were the only
         DOE power administration entities that submitted pandemic plans.
         The Bonneville Power Administration, the Southeastern Power
         Administration, and the Western Area Power Administration stated
         that they were still working on their pandemic plans at the time of our
         review.

         During our review of Headquarters offices pandemic influenza
         plans, we observed that none included planning for the
         Headquarters occupational medical clinics at Germantown,
         Maryland, and Washington, D.C. The Chair of the Monitoring
         Team, who is responsible for the medical aspects of DOE pandemic
         planning, advised that the Headquarters medical clinics are a
         necessary aspect of DOE’s pandemic planning. We determined that
         Human Capital is responsible for oversight of the Headquarters
         occupational medical clinic services.

         A responsible Human Capital official advised that during a
         pandemic, Human Capital planned to follow CDC guidelines for
         medical clinics; however, the official agreed that written details
         were necessary and agreed to develop written procedures to cover
         the Headquarters medical clinics. Although we did not review any
         site pandemic plans to determine if the sites included details
         covering how their medical clinics would operate during a
         pandemic, the Monitoring Team Chair stated that she has been
         providing pandemic influenza guidance to the contractor site office
         medical directors.



Page 5                                                  Details of Findings
COORDINATION OF   We found that coordination with individual State or U.S.
VACCINES AND      Department of Health and Human Services officials for the
ANTIVIRALS        release of pandemic vaccines and antivirals had not been
                  completed. The Deputy Secretary’s March 29, 2006, memorandum
                  stated that DOE is responsible for protecting the health of its
                  employees, which includes the distribution of needed vaccines and
                  antiviral agents. Around May 2006, initial vaccine
                  recommendations for DOE were developed. The Monitoring Team
                  Chair advised that she had instructed the site occupational medical
                  directors to develop a vaccine priority list and coordinate an
                  agreement with officials from the appropriate State(s) or U.S.
                  Department of Health and Human Services for the receipt of
                  Federal stockpiles of pandemic medicines. She said that the sites
                  were working on this task.

                  On October 22, 2007, a U.S. Department of Homeland Security
                  (DHS)/U.S. Department of Health and Human Services working
                  group developed a set of recommendations that identified priority
                  groups for vaccination. HSS is a member of that interagency
                  working group. HSS management said that it strongly recommends
                  that DOE follow the DHS/U.S. Department of Health and Human
                  Services working group guidance for prepandemic and pandemic
                  vaccine prioritization. HSS management also said that although
                  there are no clear directives on how the vaccines will be distributed,
                  it anticipates that health departments of each State will receive and
                  distribute vaccine according to the DHS/U.S. Department of Health
                  and Human Services recommendations. As such, HSS management
                  said that it continues to encourage each DOE site medical director
                  to enter into a dialogue with his/her respective State health
                  departments for the receipt of pandemic vaccine.

                  HSS management said that, due to the current lack of vaccine, DOE
                  mission-essential personnel will have the highest priority for
                  vaccinations. HSS management also said that it plans to make a
                  recommendation that DOE program offices and their respective
                  sites compile a list of mission-essential personnel according to
                  function. This list will be used to determine the number of vaccine
                  doses required and the identity of those to be vaccinated.

                  HSS management further stated that it has no specific
                  recommendation regarding the vaccination of DOE Federal and
                  contractor employees not identified as mission-essential employees.
                  Until vaccine is available for the public at large, the Monitoring
                  Team will recommend that social distancing, hand-washing, and
                  public health practices be implemented to ensure the safety and
                  health of DOE Federal and contractor employees.


Page 6                                                           Details of Findings
MONITORING TEAM   We found that, of the 11 required Monitoring Team technical
POSITIONS         advisory positions and 1 Medical Officer position, 4 advisory
                  positions and the Medical Officer position remained unfilled as of
                  October 11, 2007. The Deputy Secretary’s March 29, 2006,
                  memorandum stated that DOE shall form a Monitoring Team and
                  identified core standing members and their positions. Further, the
                  memorandum identified 11 specific technical advisors to be
                  appointed by the Monitoring Team standing members. The vacant
                  technical advisory positions were for the Offices of Science,
                  Intelligence, and Counterintelligence and a contracting
                  representative.

                  We also determined that the former DOE Headquarters Medical
                  Officer separated from DOE in September 2006 and a replacement
                  had not been hired. In the interim, the Monitoring Team Chair
                  assumed the Medical Officer’s Monitoring Team responsibilities.
                  The Monitoring Team Chair advised us that having all of the
                  required advisors to the Monitoring Team and a Headquarters DOE
                  Medical Officer would enable the process to operate efficiently
                  during a pandemic. The Continuity Program Manager also advised
                  us that the establishment of individuals as advisors in each role
                  would provide cohesiveness to the pandemic influenza plan.

ATTENDANCE        Although much progress has been made, we found that DOE
PROCESS           had not fully implemented an overall corporate process for
                  identifying and reporting employees who would be unable to
                  perform their work during a pandemic. DOE, therefore, may not be
                  able to ensure continuity of its mission-critical functions. The
                  White House Homeland Security Council directed several agencies,
                  including DOE, to complete a pandemic-related checklist. The
                  checklist included the development of an agency process to
                  determine the status of its employees during a pandemic health
                  crisis for the purpose of monitoring agency workforce levels and for
                  reporting to agencies such as DHS and the U.S. Department of
                  Health and Human Services. In order to implement this checklist
                  item, the Monitoring Team determined that DOE needed to collect
                  information in the following categories during a pandemic: the
                  number of Federal and contractor employees unavailable to work,
                  and identification of the employees’ names, organizations, and
                  work locations.

                  We were told by the Continuity Program Manager that during
                  Exercise Pinnacle 07, a May 2007 continuity of operations exercise,
                  DOE was unable to account for all Federal and contractor
                  employees who were unable to report to work. As a result, the
                  Continuity Program Manager tasked Human Capital to develop a


Page 7                                                          Details of Findings
                         corporate process for identifying how many people were unable to
                         report to work during an emergency, their identities, and their
                         location of employment. As of August 28, 2007, this capability did
                         not exist.

                         In November 15, 2007, comments on a draft of our report, Human
                         Capital stated that it had developed a corporate personnel
                         accountability process in December 2005; however, it had not been
                         included in the DOE COOP that was being finalized at that time.
                         Further, Human Capital stated that full implementation will be
                         realized when the next DOE COOP is updated. In addition, Human
                         Capital officials stated that a corporate telephonic call-in process,
                         which the DOE Continuity Program Manager requested to be
                         established, is also being researched and evaluated.

SOCIAL DISTANCING        We found that DOE had not conducted a social distancing drill
DRILL                    (e.g., use of teleworking, limited use of mass transit, and restrictions
                         on meetings and gatherings) to test its ability to perform mission-
                         essential functions while minimizing person-to-person contact. The
                         Deputy Secretary’s March 29, 2006, memorandum stated that social
                         distancing is a key component in DOE’s pandemic influenza
                         planning.

                         The Monitoring Team Chair said that a social distancing drill,
                         including teleworking where possible, is necessary because social
                         distancing is a key strategy in DOE’s pandemic planning. The
                         Continuity Program Manager also said that a drill that implements
                         the elements of social distancing is essential. He further said that
                         the related DOE Order currently in draft will require the
                         Department to perform drills, including telework drills.

PANDEMIC EMPLOYEE We found that, although DOE had initiated a pandemic
TRAINING          influenza education and information campaign, including a
                  voluntary training course, only 550 of approximately 140,000 DOE
                  and contractor employees were trained as of October 11, 2007.
                  Pursuant to the Deputy Secretary’s March 29, 2006, memorandum
                  and guidance in the National Strategy for Pandemic Influenza, a
                  pandemic plan is based upon education of its employees.

                         Participation in this training could significantly reduce employees’
                         chances of contracting a pandemic virus. The Monitoring Team
                         Chair said that her medical training strategy was to first provide
                         training to Headquarters personnel, followed by the sites. In an
                         August 13, 2007, Department-wide communication, Department
                         officials announced that they were offering a new pandemic



Page 8                                                                    Details of Findings
                  influenza training course at DOE Headquarters during September
                  and October 2007. HSS indicated that it also planned to incorporate
                  information on pandemic influenza into its next mandatory Federal
                  Employee Occupational Safety and Health training.

                  On August 23, 2007, in another Department-wide communication,
                  management announced that it would be offering a live televideo on
                  September 20 and 25, 2007, regarding pandemic training and that
                  the training would be recorded on a DVD for future viewing.
                  Therefore, pandemic training would be available to all DOE and
                  contractor employees. We believe that DOE is making significant
                  progress toward full implementation of employee pandemic
                  influenza training even though only a small number of employees
                  are currently trained, but should work to ensure that training is
                  completed by everyone.

RECOMMENDATIONS   We concluded that while DOE Headquarters and many Department
                  sites are making progress in their pandemic influenza planning,
                  much remains to be done. We recommend that the Associate
                  Administrator for Emergency Operations take the following actions:

                     1. Expedite the issuance of DOE Order 150.1, “Continuity
                        Programs,” which includes a requirement for a pandemic
                        plan at all DOE/NNSA facilities and operations and
                        mandatory training requirements;

                     2. After DOE Order 150.1 is issued, ensure that all entities
                        complete a pandemic implementation plan; and,

                     3. Coordinate with the Office of the Chief Information Officer
                        to ensure that DOE conducts a social distancing drill (e.g.,
                        use of teleworking, limited use of mass transit, and
                        restrictions on meetings and gatherings) to test its ability to
                        perform mission-essential functions while minimizing
                        person-to-person contact.

                  We recommend that the Chief Health, Safety and Security Officer
                  take the following actions:

                     4. Ensure that Headquarters offices and their respective sites
                        coordinate an agreement with State or U.S. Department of
                        Health and Human Services officials regarding the receipt of
                        vaccines and antivirals during a pandemic; and,




Page 9                                                          Recommendations
                5. Expedite appointments to all Monitoring Team positions,
                   including the Monitoring Team Medical Officer, in order to
                   fully implement pandemic planning.

             We recommend that the Director, Office of Human Capital
             Management, take the following actions:

                6. Develop and institutionalize a corporate process for all
                   DOE/NNSA facilities, including Headquarters, to identify
                   and report employees who would be unable to report to
                   work during a pandemic; and,

                7. Develop a written procedure for the operation of
                   Headquarters health clinics during a pandemic.

MANAGEMENT   In comments on a draft of this report, management generally
COMMENTS     concurred with our findings and recommendations. We have
             included management’s comments in their entirety at Appendix D.
             The comments from HSS and Human Capital included corrective
             action plans; however, the NNSA comments did not include a
             corrective action plan.

             Specific to our recommendation that NNSA’s Associate
             Administrator for Emergency Operations coordinate with the Chief
             Information Officer to conduct a DOE social distancing drill,
             NNSA management acknowledged the appropriateness of a social
             distancing drill, but considered such a drill to be problematic to
             implement. NNSA management considered it to be more
             appropriate to elevate the recommendation to the Deputy Secretary
             to ensure Department-wide participation.

INSPECTOR    In general, we found the management comments to be responsive
COMMENTS     to our findings and recommendations, and based on technical
             comments received, we modified the report accordingly. However,
             due to the lack of a corrective action plan from NNSA, as required
             by DOE O 221.3, “Establishment of Management Decisions on
             Office of Inspector General Reports,” a management decision from
             NNSA is required.

             Regarding NNSA’s comment about conducting a DOE-wide social
             distancing drill, we note that on November 6, 2006, the Deputy
             Secretary of Energy notified all Department elements via a
             memorandum that he had approved the transfer of management of
             DOE’s Continuity of Government Program from HSS to NNSA’s
             Office of Emergency Operations. We also note that the



Page 10                              Management and Inspector Comments
          memorandum stated that all elements were to give the NNSA
          Continuity Operations Program Manager their full cooperation
          because these programs were critical in ensuring DOE’s ability to
          perform its mission-essential functions in the event of a significant
          disruption. Thus, we believe it is clear the Office of Emergency
          Operations has the authority to conduct social distancing drills.




Page 11                                                 Inspector Comments
Appendix A

SCOPE AND     The majority of field work for this review was completed between
METHODOLOGY   May and July 2007. However, several data points were updated as
              of October 11, 2007. Our review included interviews with DOE,
              NNSA, and contractor officials. We also interviewed U.S. Public
              Health Service officials regarding DOE’s service contract covering
              the Headquarters medical clinics. We reviewed pertinent policies,
              procedures, directives, and regulations.

              As part of our review, we evaluated implementation of the
              “Government Performance and Results Act of 1993” in the context
              of activities included in our review. We did not identify any
              performance measure issues regarding DOE’s pandemic influenza
              planning.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 12                                              Scope and Methodology
Appendix B


                     Status of Pandemic Influenza Plans as of June 1, 2007

Chart 1 - DOE/NNSA Entities that Submitted Final or Draft Pandemic Influenza Plan

DOE/NNSA HQ Staff and Support Offices

   1.    Chief Financial Officer
   2.    Economic Impact and Diversity
   3.    Environmental Management
   4.    Fossil Energy (Draft)
   5.    General Counsel
   6.    Health, Safety and Security
   7.    Hearings and Appeals
   8.    Human Capital Management (Draft)
   9.    Inspector General
   10.   Intelligence and Counterintelligence
   11.   Management
   12.   Defense Programs (Draft)
   13.   Defense Nuclear Non-Proliferation
   14.   Emergency Operations (Draft)
   15.   Emergency Operations Training Academy
   16.   Management & Administration (Draft)
   17.   Defense Nuclear Security
   18.   Nuclear Energy
   19.   Electricity Delivery and Energy Reliability (Draft)
   20.   Science

DOE/NNSA Field Sites & Organizations

   1.    Carlsbad Field Office
   2.    Consolidated Business Center
   3.    Rocky Flats Project Office
   4.    West Valley Project Office
   5.    Moab Uranium Mill Tailings Remedial Action Site Project
   6.    Golden Field Office
   7.    National Nuclear Security Administration Service Center
   8.    Oak Ridge Office
   9.    Office of River Protection
   10.   Richland Operations Office
   11.   Portsmouth/Paducah Project Office
   12.   Southwestern Power Administration: Gore Maintenance Unit
   13.   Southwestern Power Administration: Jonesboro Maintenance Unit
   14.   Southwestern Power Administration: Operations and Engineering
   15.   Southwestern Power Administration: Springfield Maintenance Unit
   16.   Southwestern Power Administration: Southwest Headquarters, OK



                                                                                              __

Page 13                                     Status of Pandemic Influenza Plans as of June 1, 2007
Appendix B (continued)

Chart 2 - DOE/NNSA Entities WITHOUT a Pandemic Influenza Plan

DOE/NNSA HQ Staff and Support Offices

   1.    Congressional and Intergovernmental Affairs
   2.    Energy Efficiency and Renewable Energy
   3.    Energy Information Administration
   4.    Information Officer
   5.    Legacy Management
   6.    Naval Reactors
   7.    Infrastructure & Environment
   8.    Public Affairs
   9.    Policy and International Affairs
   10.   Radioactive Waste Management

DOE/NNSA Field Sites & Organizations

   1.    Ames Site Office
   2.    Argonne Site Office
   3.    Berkeley Site Office
   4.    Bonneville Power Administration
   5.    Brookhaven Site Office
   6.    Chicago Office
   7.    Fermi Site Office
   8.    Idaho Operations Office
   9.    Kansas City Site Office
   10.   Livermore Site Office
   11.   Los Alamos Site Office
   12.   Naval Petroleum Reserves in CA
   13.   Nevada Site Office
   14.   Y-12 Site Office
   15.   Pacific Northwest National Laboratory
   16.   Pantex Site Office
   17.   Pittsburgh Naval Reactors Office
   18.   Princeton Site Office
   19.   Sandia Site Office
   20.   Savannah River Site
   21.   Schenectady Naval Reactors Office
   22.   Southeastern Power Administration
   23.   Stanford Site Office
   24.   Strategic Petroleum Reserve Project Office
   25.   Thomas Jefferson Site Office
   26.   Western Area Power Administration




                                                                                             __

Page 14                                    Status of Pandemic Influenza Plans as of June 1, 2007
Appendix C

HIGHLIGHTS OF DOE’S As part of DOE’s interagency responsibilities, HSS represents
PANDEMIC PLANNING DOE on the Federal Interagency Task Group on Vaccine
                    Prioritization. Through participation, HSS was able to ensure the
                    DOE security forces were identified as a high priority for receiving
                    pre-pandemic and pandemic vaccines. HSS developed a website
                    with pandemic information and issued a Department-wide
                    communication to direct employees to this information. HSS
                    initiated educational classes on pandemic influenza starting in
                    September 2007. The classes will be available to everyone on
                    DVD. HSS also plans to incorporate information on pandemic
                    influenza into its next mandatory Federal Employee Occupational
                    Safety and Health training. In addition, on September 7, 2007, the
                    Chief Health, Safety and Security Officer issued a memorandum
                    that stated that HSS developed a pandemic flu awareness website
                    and requested all program offices with websites to establish a link
                    to the HSS website.

                           The Monitoring Team has met on several occasions and has been
                           coordinating with the site occupational medical directors on a
                           monthly basis regarding DOE-wide pandemic planning and site
                           planning with State or U.S. Department of Health and Human
                           Services officials. The Monitoring Team has also been
                           coordinating with Human Capital regarding employee medical
                           training and numerous personnel issues that must be addressed in a
                           pandemic plan. Human Capital is in the process of reviewing and
                           revising DOE policy regarding absenteeism during a pandemic,
                           contracts with health care providers, and Employee Assistance
                           Programs. Further, during May 2007, under the guidance of the
                           Continuity Program Manager, DOE conducted a continuity of
                           operations exercise at Germantown, MD, called Exercise Pinnacle
                           07. The Continuity Program Manager said that the exercise
                           identified the lack of a corporate accountability process for
                           reporting who was not at work.

                           Los Alamos National Laboratory and Sandia National Laboratories
                           have been contracted by DHS to develop pandemic influenza
                           modeling scenarios. Further, the Bonneville Power Administration
                           helped the North American Electric Reliability Corporation
                           develop pandemic emergency guidelines for electric companies.




Page 15                                          Highlights of DOE’s Pandemic Planning
Appendix D




Page 16      Management Comments
Appendix D (continued)




Page 17                  Management Comments
Appendix D (continued)




Page 18                  Management Comments
Appendix D (continued)




Page 19                  Management Comments
Appendix D (continued)




Page 20                  Management Comments
                                                                    IG Report No. DOE/IG-0784

                           CUSTOMER RESPONSE FORM
The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message clearer to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Ms. Judy Garland-Smith at (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
